OIG Investigative Reports, Arrest of Individual for Pell Grant Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Federal Bureau of Investigation
www.fbi.gov
Federal Office Building
150 Carlos Chardon Avenue
Suite 526
Sun Juan, Puerto. Rico 00918
(787) 7546000
Contact: Harry Rodriguez
Special Agent
FBISan Juan
Media Representitive
(787) 7591550(787) 9940441
FOR IMMEDIATE RELEASE
Date: April 2,2008
PRESS RELEASE
Arrest of Individual for Pell Grant Program Fraud
On March 31, 2008, Federal Agents with the U.S. Department of Education-Office of the Inspector General and the FBI arrested, without incident, Reinaldo OrtizRosario in Corozal, Puerto Rico for his alleged participation in a scheme to falsify student records in order to receive U.S. Government student financial aid. OrtizRosario was charged in an eleven count indictment by a federal grand jury in San Juan, Puerto Rico on March 26, 2008.
OrtizRosario is charged with one count of Student Financial Aid Fraud, nine counts of Wire Fraud, and one count of Obstruction of a Federal Audit.
According to the indictment, OrtizRosario was the president and owner of Instituto Tecnológico Empresarial with two campuses located in Trujillo Alto, Puerto Rico and Lares, Puerto Rico. The Instituto Tecnológico Empresarial was a vocational technical institution.
On July 17, 2002, the Instituto Tecnológico Empresarial was accepted in the Program Participation Agreement relating to the Pell Grant program.  As a condition to participate in this program, the students who sought Pell Grant funds had to have either a high school diploma, a general education development (GED) certificate, or had to have passed an independently administered ability to benefit test.
The indictment alleges OrtizRosario submitted to the U.S. Department of Education false GED test results for 38 students, and as a result, the Instituto Tecnológico Empresarial received approximately 80,000.00 dollars in Pell Grant funds.  The indictment further alleges OrtizRosario falsified student records so as to make students who were not eligible for these funds appear to be eligible when in fact, he knew these students had neither graduated high school, obtained a GED certificate, nor passed an independently administered ability to benefit test.
In addition, during a review of the program in July 2004 by the officials with the U.S. Department of Education, OrtizRosario fraudulently portrayed that all the students were eligible for this grant when in fact; it is believed he had falsified many of the GED certificates found in the students files.
OrtizRosario had an initial appearance before U.S. Magistrate Judge Justo Arenas on March 31, 2008 and was released pending a 50,000.00 dollar cash or secured bond. OrtizRosario is scheduled to have his arraignment on April 4, 2008.
This case is being prosecuted by Assistant United States Attorney Myriam Y. FernándezGonzález of the District of Puerto Rico. This investigation was conducted by the U.S. Department of EducationOffice of the Inspector General and the FBI.
The public is reminded that an indictment is not evidence of any guilt.  A defendant is presumed innocent and entitled to a fair trial.  The U.S. government has the burden of proving guilt beyond a reasonable doubt.
####
The public is reminded that a criminal complaint is not evidence of any guilt. The defendant is presumed innocent and entitled to a fair trial. The U.S. government has the burden of proving guilt beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 01/05/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov